GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




          REVIEW OF THE IMPLEMENTATION
              OF HOMELAND SECURITY
            PRESIDENTIAL DIRECTIVE 12
         REPORT NUMBER A060195/O/R/F07013
                  August 13, 2007
                   REVIEW OF THE IMPLEMENTATION
                       OF HOMELAND SECURITY
                     PRESIDENTIAL DIRECTIVE 12
                  REPORT NUMBER A060195/O/R/F07013


                           TABLE OF CONTENTS

                                                                 PAGE

EXECUTIVE SUMMARY                                                  i

INTRODUCTION                                                      1

     Background                                                   1

     Objective, Scope, and Methodology                            2

RESULTS OF AUDIT                                                  4

     GSA Has Been Moving Forward in Implementing HSPD-12
     Requirements                                                 4

     Lack of a HSPD-12 Service Contractor Hinders GSA’s
     Ability to Meet OMB’s October 27, 2007 Deadline              6

     Additional Obstacles Impacting GSA’s Ability to Implement
     HSPD-12                                                      8

CONCLUSION                                                        10

RECOMMENDATIONS                                                   11

MANAGEMENT COMMENTS                                               11

MANAGEMENT CONTROLS                                               11

APPENDICES

     Management’s Response to the Draft Report                   A-1

     Report Distribution                                         B-1
                    REVIEW OF THE IMPLEMENTATION
                        OF HOMELAND SECURITY
                      PRESIDENTIAL DIRECTIVE 12
                   REPORT NUMBER A060195/O/R/F07013

EXECUTIVE SUMMARY

Purpose

The objective of this review was to analyze whether actions underway are
adequate to meet Office of Management and Budget (OMB) requirements and
timeframes for the implementation of Homeland Security Presidential Directive
12 (HSPD-12) in accordance with Federal Information Processing Standard
Publication 201 (FIPS 201), and if not, what corrective actions are needed.

Background

On August 27, 2004, President George W. Bush issued HSPD-12, which
mandates the establishment of a common standard for identification credentials
to be utilized by all Federal employees and contractors to gain physical and
logical access to Federally controlled facilities and information systems. On
February 25, 2005, the National Institute of Standards and Technology (NIST)
published FIPS 201, Personal Identity Verification (PIV) of Federal Employees
and Contractors. FIPS 201 consists of two parts; the standards in PIV I support
the control objectives and security requirements described in HSPD-12. The PIV
II standards support the technical interoperability requirements described in
HSPD-12 and specifies standards for implementing smart cards as identity
credentials for use in the PIV system, including the collection, storage, and
management of documentation needed to authenticate an individual’s identity.
On August 5, 2005, OMB issued a memorandum, “Implementation of Homeland
Security Presidential Directive (HSPD) 12 – Policy for a Common Identification
Standard for Federal Employees and Contractors” (M-05-24), which set
deadlines for HSPD-12 implementation. The first major deadline, October 27,
2005, required all agencies to establish control objectives and a common identity
proofing process, as well as the registration and issuance process, and security
controls. The subsequent deadline of October 27, 2006, required all agencies to
begin the issuance of PIV II compliant credentials. Upcoming deadlines, falling
on October 27, 2007 and October 27, 2008, require agencies to complete
background investigations and issue PIV cards to all contractors and employees
with fifteen years or less Federal service and those employees with greater than
fifteen years of service, respectively.

The GSA HSPD-12 Project Management Office (PMO) of the Office of the Chief
Information Officer was created to manage GSA’s implementation of HSPD-12.
In addition to the PMO, the GSA Federal Acquisition Service launched the


                                        i
HSPD-12 Managed Service Office (MSO) to utilize competitively selected
contract vehicles to provide all project, acquisition, and financial management
necessary for GSA’s customer agencies to satisfy the requirements of OMB
M-05-24.

Results in Brief

GSA has met OMB’s first two deadlines requiring issuance of operating
procedures by October 27, 2005, and the production of a PIV II compliant card by
October 27, 2006. GSA is also continuing to move forward in such aspects of
HSPD-12 implementation as processing employee and contractor background
investigations, developing plans for logical and physical access, and updating its
general HSPD-12 policies. However, GSA will likely not meet OMB’s October 27,
2007 deadline that requires the issuance of PIV II compliant cards to all
contractors and employees with 15 years or less of service due to the late award
of a MSO Service contractor and the limited PIV card production capability of that
contractor by the deadline. In addition to the MSO Service contractor currently
being inoperative, GSA is faced with other obstacles affecting its ability to
implement HSPD-12.         These include the lack of a detailed HSPD-12
implementation plan and the absence of a centralized database capturing GSA-
wide contractor information.

Recommendations

To remedy the situation, the OCIO needs to address factors that will impact its
effectiveness in implementing HSPD-12. These steps include having the PMO
manager and HSPD-12 stakeholders work together to establish a detailed
implementation plan outlining how GSA plans to implement HSPD-12 in its
entirety and establishing a contractor identity management system, while
expediting background investigations for embedded contractors.




                                        ii
                         Review of the Implementation
                             of Homeland Security
                           Presidential Directive 12
                      Report Number A060195/O/R/F07013


Introduction

Background

On August 27, 2004, President George W. Bush issued Homeland Security
Presidential Directive 12 (HSPD-12), Policy for a Common Identification
Standard for Federal Employees and Contractors. HSPD-12 mandates the
establishment of a common standard for identification credentials to be utilized
by all Federal employees and contractors to gain physical and logical access to
Federally controlled facilities and information systems. This directive is intended
to enhance security, reduce identity fraud, increase the efficiency of identity
proofing and verification, and protect the personal privacy of those issued
government credentials.

The Department of Commerce and the National Institute of Standards and
Technology (NIST) were tasked with publishing a definition for common
identification standards required by HSPD-12. On February 25, 2005, NIST
published Federal Information Processing Standards Publication 201 (FIPS 201),
Personal Identity Verification (PIV) of Federal Employees and Contractors. The
standards required by HSPD-12 are made tangible in the form of a PIV card that
adheres to the specifications defined in FIPS 201 and is to be used for both
physical and logical access control, as well as any other agency-specific
applications. FIPS 201 consists of two parts; the standards in PIV I support the
control objectives and security requirements described in HSPD-12. The PIV II
standards support the technical interoperability requirements described in HSPD
-12 and specifies standards for implementing smart cards as identity credentials
for use in the PIV system, including the collection, storage, and management of
documentation needed to authenticate an individual’s identity.

HSPD-12 requires Federal credentials to be secure and reliable, which is defined
as a credential that: is issued based on sound criteria for verifying an individual’s
identity; is strongly resistant to identity fraud, tampering, counterfeiting, and
terrorist exploitation; can be rapidly authenticated electronically; and is issued
only by providers whose reliability has been established by an official
accreditation process. The primary requirements for an agency to implement
HSPD-12 are to revise the identity proofing and card issuance process of the
agency to meet FIPS 201 requirements. FIPS 201 requirements include the
issuance of an identity credential that utilizes smart card technology (both contact
and contactless), and incorporates a standardized Card Holder Unique Identifier
(CHUID), digital credentials, and biometric templates.



                                         1
The major milestones for HSPD-12 implementation are outlined in Office of
Management and Budget (OMB) memorandum “Implementation of Homeland
Security Presidential Directive (HSPD) 12 – Policy for a Common Identification
Standard for Federal Employees and Contractors” (M-05-24), dated August 5,
2005. The first major deadline, October 27, 2005, required all agencies to
establish control objectives and a common identity proofing process, as well as
the registration and issuance process, and security controls. The subsequent
deadline of October 27, 2006, required all agencies to begin the issuance of PIV
II compliant credentials. The upcoming OMB deadline of October 27, 2007,
requires agencies to issue PIV cards to all contractors and employees with 15
years or less of Federal service after a successful fingerprint check and a
background investigation is started or complete. The final OMB deadline of
October 27, 2008, requires agencies to issue PIV cards to all employees with
greater than 15 years of Federal service after a successful fingerprint check and
a background investigation is started or complete.

The General Services Administration (GSA) HSPD-12 Program Management
Office (PMO) of the Office of the Chief Information Officer was created to develop
the PIV system architecture, as well as perform analysis of access controls,
coordinate training and communication, provide transition plans from the old
credentialing system to the PIV system, and to assume responsibility for GSA’s
internal credentialing.

The GSA Federal Acquisition Service launched the HSPD-12 Managed Service
Office (MSO) in response to HSPD-12. The MSO’s mission is to utilize
competitively selected contract vehicles to provide all project, acquisition, and
financial management necessary for GSA’s customer agencies to satisfy the
requirements of OMB M-05-24. Although the MSO is not a mandatory source of
supply, it was established to provide centralized shared services for contributing
agencies who wish to take advantage of the cost savings and efficiencies
realized from establishing a common, government-wide shared services platform.

Objective, Scope, and Methodology

The audit objective was to analyze whether actions underway are adequate to
meet OMB requirements and timeframes for the implementation of HSPD-12 in
accordance with FIPS 201, and if not, what corrective actions are needed.

To accomplish this audit objective we performed fieldwork primarily in the
National Office. During fieldwork, we performed the following tasks:

∗   Obtained background information including: OMB memorandums, NIST
    publications, prior Government Accountability Office and GSA Office of
    Inspector General audit reports.
∗   Analyzed numerous GSA documents generated through the HSPD-12 PMO,
    the MSO, Office of Acquisition Policy, and Public Buildings Service (PBS)


                                        2
    such as; HSPD-12 Standard Operating Procedures, HSPD-12 Draft
    Informational Letter, PMO Business Plan and the HSPD-12 Implementation
    Overview.
∗   Held discussions with officials in the HSPD-12 PMO, the MSO, PBS, and the
    Office of the Chief Human Capital Officer (CHCO).
∗   Discussed the current use of building access systems and the planned
    transition to PIV II compliant access systems with regional credentialing
    officers.
∗   Analyzed a Memorandum of Understanding (MOU) between the PMO and
    MSO for management and service support for PIV credentials through a
    shared service solution.
∗   Analyzed a Memorandum of Agreement between GSA and the Department of
    Homeland Security for background investigation services.
∗   Analyzed HSPD-12 contracting language and the MSO Request for
    Quotations.
∗   Observed the enrollment process at the MSO registration station in the
    National Capital Region.
∗   Reviewed the bi-weekly HSPD-12 Stakeholders Meeting Minutes and the
    monthly HSPD-12 Program Management Updates.

The audit work was conducted from November 2006 to March 2007. The
fieldwork primarily focused on the operations of the PMO office. A review of
management controls was not performed due to the limited number of PIV II
compliant cards currently issued. It is planned that testing of management
controls will be conducted in a subsequent review when the new MSO contractor
has been established.

The audit was performed in accordance with generally accepted government
auditing standards.




                                      3
Results of Audit

The General Services Administration (GSA) has been moving forward in its
efforts to implement aspects of Homeland Security Presidential Directive 12
(HSPD-12) and Federal Information Processing Standards Publication 201 (FIPS
201), Personal Identity Verification (PIV) of Federal Employees and Contractors,
by ensuring that it meets background investigation processing requirements and
developing supplemental agency policy to meet the new requirements. In
addition, GSA is beginning to develop plans on how it will utilize the PIV cards for
logical and physical access.

GSA has met the Office of Management and Budget’s (OMB) first two deadlines
requiring agencies to establish an identity proofing and registration process
meeting the control objectives in FIPS 201 by October 27, 2005, and to begin
deploying PIV II compliant cards by October 27, 2006. However, it is unlikely
GSA will meet the October 27, 2007 deadline requiring the issuance of PIV II
compliant cards to all contractors, and to all employees with 15 years or less of
service. As of March 1, 2007, GSA had only issued 71 PIV II cards and since the
contract vehicle for the PIV II cards has been recompeted, GSA will most likely
be unable to obtain the required number of PIV II cards by the October 27, 2007
deadline.

GSA needs to address additional factors that will impact its effectiveness in
implementing HSPD-12 including the lack of a detailed HSPD-12 implementation
plan and absence of a centralized database capturing GSA-wide contractor
information.

GSA Has Been Moving Forward in Implementing HSPD-12 Requirements

GSA has been moving forward in its efforts to implement aspects of HSPD-12
and FIPS 201. It has been ensuring that it meets background investigation
processing requirements and developing supplemental agency policy to meet the
new requirements. In addition, GSA is beginning to develop plans on how it will
utilize the PIV cards for logical and physical access.

To meet the background processing requirements of HSPD-12 and FIPS 201,
GSA has established standard operating procedures for personal identity
verification and has been working to ensure all required background
investigations are performed. As of October 17, 2005, GSA adopted new
standard operating procedures for personnel security. According to this policy,
before a new associate or contractor is issued an identity credential, the agency
must initiate a National Agency Check with Written Inquiries (NACI), and
favorable results must be received from the FBI National Criminal History Check
(fingerprint check). Once a favorable fingerprint check is received a PIV II card
can be issued and the user will have access to low impact applications such as
desktop applications, network access, email access, and home directory access.


                                         4
When a favorable NACI is received and is adjudicated, a process often taking 2
to 3 months, the user will gain access to GSA moderate impact applications that
may contain privacy act information.

GSA has also been working to ensure all required background investigations will
be performed. The GSA Personnel Security Requirements Division (Division)
within the Office of the Chief Human Capital Officer is primarily responsible for
the direction, guidance, and interpretation of HSPD-12 and FIPS 201 background
investigation requirements. As of March 2007, the Division has identified a
possible 716 GSA employees and the PMO identified an estimated 63,000
embedded and PBS contractors that may need background investigations to
meet OMB’s October 27, 2007 deadline. The Division is working to complete all
fingerprint checks and start the NACI investigations for GSA employees before
October 27, 2007, as required. To assist in processing background clearances
for contractors, GSA has entered into a Memorandum of Agreement with the
Department of Homeland Security, Federal Protective Service, to provide
background investigations and suitability determinations.

GSA has also been developing supplemental policies to meet HSPD -12
requirements. On April 12, 2007, GSA issued Standard Operating Procedures
for HSPD-12 Personal Identity Verification and Credentialing. Additionally, it is
currently drafting the GSA HSPD-12 PIV Informational Letter to supplement
instructions contained in other GSA policy documents1. These documents
provide guidance on many aspects of GSA’s implementation of HSPD-12
including the HSPD-12 Investigation and Adjudication Process, PIV Credentialing
Procedures, System and Network Security Access, and Physical Access to GSA-
Controlled Facilities. Currently, the Informational Letter is in a draft state with
varying degrees of completeness. There is no firm date on when this document
will become the official policy of GSA.

Finally, GSA has begun to develop plans on how it will utilize the PIV cards for
logical and physical access. GSA efforts to implement logical access using the
PIV II cards have been influenced by OMB memorandum “Protection of Sensitive
Agency Information” (M-06-16), which lists specific actions to be taken by
Federal agencies for the protection of Personally Identifiable Information (PII).
The specific intent of OMB memo M-06-16 is to compensate for the protections
offered by the physical security controls when information is removed from, or
accessed from, outside of the agency location. GSA intends to use the PIV II
card to satisfy the directive’s requirement of allowing remote access to PII with
two-factor authentication where one of the factors is provided by a device
separated from the computer gaining access. GSA also intends to utilize the
capabilities of the card as a control for employees to log into their laptop and
desktop computers. The PMO is partnering with the Directory Services PMO to

1
 These policies include GSA Handbook on Suitability and Personnel Security (ADM P 9732.1C);
GSA Nationwide Credentials Handbook (ADM P7640.2); GSA Information Technology Security
Policy (CIO P 2100.1C); and the General Services Acquisition Manual.


                                             5
develop requirements for using the PIV II card for network and application
access, and will be conducting a pilot program for logical access using 50
individuals with PIV II cards.

To address physical access control systems to be used in GSA leased and
owned buildings, the PMO has arranged for a contractor to conduct a survey to
determine the kinds of physical access controls that are currently in place across
the approximately 9,000 buildings managed by GSA. This survey will result in an
analysis to determine an approach to update and/or replace physical access
control systems for GSA leased and owned buildings that are not HSPD-12
compliant. Once this is completed, the PMO will partner with the Public Buildings
Service (PBS) to develop a plan to implement compliant physical access systems
in Federal buildings.2 Using a risk-based approach, PBS intends to issue policy
regarding HSPD-12 responsibilities for access control procedures; including
funding and installation of physical access controls. Current guidance from the
PBS Assistant Commissioner’s office on card readers is that PBS will be
responsible for funding only in those locations where PBS is an occupant, and
will fund a prorated share along with the other building occupants. Building
Security Committees will be responsible for determining building specific access
control procedures. PBS plans to model its policy upon the Interagency Security
Committee draft report of October 23, 2006, Physical Security System Migration
Strategy Overview.

Lack of a HSPD-12 Service Contractor Hinders GSA’s Ability to Meet OMB’s
October 27, 2007 Deadline

GSA has met OMB’s first two deadlines requiring agencies to establish an
identity proofing and registration process meeting the control objectives in FIPS
201 by October 27, 2005, and to begin deploying PIV II compliant cards by
October 27, 2006. However, it is unlikely GSA will meet the October 27, 2007
deadline requiring the issuance of PIV II compliant cards to all contractors and
employees with 15 years or less of service. As of March 1, 2007, GSA had only
issued 71 PIV II compliant cards and since the contract vehicle for the PIV II
cards has been recompeted, GSA will likely be unable to obtain the required
number of PIV II cards by the October 27, 2007 deadline.

In September 2006, the decision was made that the PMO would obtain the PIV II
compliant cards through the GSA’s Federal Acquisition Service (FAS) HSPD-12
Managed Service Office (MSO). Accordingly, the Office of the Chief Information
Officer PMO entered into a Memorandum of Understanding (MOU) with the FAS
MSO. Under the terms of this MOU, the MSO is responsible for providing end-to-
end services, including enrollment processing, systems infrastructure, PKI
certificates, card production, issuance, and maintenance. These services were
being provided through the MSO offering contract that was awarded in August

2
 Currently, compliant solutions for access controls are limited and still undergoing development
and certification.


                                                6
2006 to BearingPoint for $104 million over an initial contract period of six months
and options to extend the contract for a total of five years. The MSO also
established four pilot registration stations in Atlanta, Seattle, New York City and
Washington, D.C.

The PMO met the October 27, 2006, deadline by issuing six PIV II compliant
cards via the MSO contract. However, shortly after the MSO contractor
produced these PIV II compliant cards, FAS decided not to exercise the option
under the contract to extend the initial contract period beyond the initial 6-month
term. Since a change in contractor may create additional transition issues, GSA
has been reluctant to issue a large number of PIV II cards. As of March 1, 2007,
GSA had issued a total of 71 PIV II compliant cards. Instead, GSA has been
primarily issuing legacy identification and credentials, such as the GSA Smart
Card Credential, to new employees and contractors.

On January 12, 2007, GSA issued a solicitation requesting quotes for an offeror
to provide end-to-end HSPD-12 services. The solicitation specifies that GSA FAS
is offering services through this solicitation and subsequent contract as a shared
service solution to all Federal government agencies. The solicitation notes that
approximately 40 agencies have executed agreements with GSA to obtain
services through this offering.3 This represents approximately 420,000 Federal
employees and offerors to be enrolled and issued credentials in the PIV Program
through this vehicle. The contract was awarded on April 24, 2007; with roll out
scheduled to begin July 2007. As part of the roll out, 225 enrollment stations are
to be established nationwide by April 2008. These dates are predicated on a
trouble-free completion of the certification and accreditation process and the
resolution of the May 1, 2007 protests of the contract award.

The FAS MSO currently estimates that they will be able to produce only 61,280
cards by the October 27, 2007 deadline, and these must be allocated across the
42 agencies with agreements with the MSO. However, GSA estimates that it
alone requires approximately 67,110 PIV II credentials for approximately 4,110
employees with 15 years of service or less and 63,000 contractors requiring
credentials by the October 2007 deadline. Given these statistics, it is unlikely
that GSA will be able to meet OMB’s October 27, 2007 deadline. While waiting
for the new MSO Service contractor to come on line, GSA plans to continue
issuing non-compliant smart cards to its employees and contractors.

Also in abeyance until the new MSO Service contractor is fully functional is the
essential HSPD-12 related training. Previously, role based training had been
available to applicable GSA employees through an on-line system. We have
been advised that this training has been suspended until after the new MSO
contract has been awarded.


3
  As of April 2007, 42 agencies have executed agreements with GSA to obtain services through
this offering.


                                              7
Additional Obstacles Impacting GSA’s Ability to Implement HSPD-12

While the MSO Service contractor limitations are a major impediment to GSA’s
effort to implement HSPD-12, other factors are also impacting implementation,
such as the lengthy absence of a Program Manager for the HSPD-12 PMO, the
need for a detailed HSPD-12 implementation plan, and the absence of a
centralized database consolidating contractor information.

PMO Program Manager Vacancy

The former Program Manager of the GSA HSPD-12 PMO retired unexpectedly
on January 3, 2007. Up until May 27 2007, the PMO continued with only an
Acting Program Manager coordinating GSA’s efforts to implement HSPD-12. For
this five month period a permanent Program Manager was not in place to help
coordinate the major components of GSA’s HSPD-12 program which includes
the acquisition of GSA Smart Cards from the MSO, physical access, logical
access, and the maintenance of legacy smart cards. Numerous GSA service
and staff offices (SSO) are involved in developing these major components such
as: Office of the Chief Information Officer, Office of the Chief Human Capital
Officer, Office of the Chief Acquisition Officer and PBS, and strong leadership
was needed to coordinate everyone’s efforts. With the number of SSOs involved
in the HSPD-12 effort, an overall Program Manager was needed to direct and
monitor the many facets of HSPD-12.

The Need for a Detailed HSPD-12 Implementation Plan

On July 11, 2006, the PMO issued a business plan that detailed GSA’s
alternative strategies to perform card issuance services internally as well as
contracting out these services to a vendor, such as through the MSO. Once the
decision was made to utilize the MSO Service contractor, a substantial part of the
business plan became obsolete; however, a revised plan was not developed. On
March 19, 2007, the PMO issued a GSA HSPD-12 Implementation Overview.
Per the PMO, “This document is a high-level overview combining GSA’s HSPD -
12 internal project plan and implementation plan and depicts the overall effort,
timeline and projection of card issuance costs through FY ‘08.” While this does
provide a basic strategy for implementing HSPD-12, as the new MSO contractor
comes on line and the technology for physical access controls becomes better
defined a more detailed plan needs to be developed.

A detailed implementation plan is needed to ensure the success of the overall
HSPD-12 program, as there are several issues that need to be addressed. For
example, maintaining the operations of physical access control systems during
the HSPD-12 PIV transition period is an area of concern. Currently, multiple




                                        8
GSA Regions utilize Smart Card reader based physical access systems4. In
addition, due to the multi-year deadline for full transition to the PIV II cards,
employees with less than 15 years service may receive PIV II cards prior to
employees with more years of service. To continue operating physical access
control systems during the transition period, all employees within a building or
office using Smart Card readers will still need the legacy GSA Smart Card. As a
result, GSA may have to not just maintain, but also continue to issue legacy GSA
Smart Cards to new employees until all building occupants have been provided
PIV II cards and current access systems have been updated or replaced by
systems that are PIV II compliant.

Although it is difficult to develop a final detailed implementation plan without the
MSO contract vehicle in place, the issues surrounding the transition to, and
implementation of, the PIV II card need to be addressed. As such, in developing
and maintaining a detailed implementation plan, consideration will need to be
given to how existing GSA functions will be impacted as the MSO contractor
becomes fully operational. Currently, GSA credentialing officials are responsible
for several tasks related to GSA card registration. Depending on the services
provided by the MSO, some tasks might shift to the MSO Service contractor. If
so, the role of the credentialing official will need to be assessed and the
implementation plan updated to reflect any changes.

Absence of a Centralized Contractor Database

As noted previously, OMB memorandum “Implementation of Homeland Security
Presidential Directive (HSPD) 12 – Policy for a Common Identification Standard
for Federal Employees and Contractors” (M-05-24), dated August 5, 2005,
requires agencies to issue PIV cards to all applicable contractors by October 27,
2007. Effective January 3, 2006, Federal Acquisition Regulation (FAR) Parts 2,
4, 7, and 52 were revised to require solicitations and contracts to include
requirements that contractors who have access to Federally-controlled facilities
and information systems comply with the agency’s personal identity verification
process. In response to these changes, a letter was issued by the GSA Chief
Acquisition Officer, effective February 3, 2006, instructing all GSA contracting
associates to include the FAR clauses as well as any agency specific guidance
for personal identity verification in all solicitations and contracts issued and
awarded on or after October 27, 2005. In addition, contracts awarded prior to
this date that are still active (more than three months from expiration) must be
modified by October 27, 2007, to include the FAR clauses as well as any agency
specific changes in accordance with the implementation of FIPS 201 and OMB
memorandum M-05-24.



4
  Card readers using the GSA smart card credential are used for building and/or office access in
the New England, Mid-Atlantic, and Rocky Mountain regions. The Northeast & Caribbean region
uses its own unique smart card credential for access to several buildings in New York City.


                                               9
While the PMO estimates that there are 13,000 embedded contractors and
50,000 PBS contractors, there is no centralized database that contains a record
of all GSA contractors requiring the level of physical and systems access that
necessitates favorably adjudicated background investigations and fingerprint
checks. Because of this, GSA’s Background Investigation Division is unsure of
the true number of contractors, and correspondingly, unsure whether all
contractors will have background investigations completed by the OMB deadline.

GSA has utilized embedded contractors prior to the requirements of HSPD-12.
Many of these contractors may have current physical and systems access
without having the level of background checks required by HSPD-12.
Consequently, given the impediments to full realization of the goals of HSPD-12,
embedded contractors may have physical and logical access far beyond the
OMB deadlines. As such, GSA needs to expedite background investigations for
embedded contractors that currently have access to GSA systems.

The PMO has raised concerns in this area, noting that there are five sources
containing information on contractors, all with different populations and data
formats. Consequently, the PMO proposes the establishment of a contractor
identity management system, with mandatory enrollment for all current GSA
contractors. We agree with the need for a contractor identity management
system and recommend that such a system be put into operation.

Conclusion

Although GSA has met OMB’s first two deadlines and it continues to move
forward in such areas as processing employee and contractor background
investigations, developing plans for logical and physical access, and updating
general HSPD-12 policies, GSA will likely not meet OMB’s October 27, 2007
deadline as a result of the late award of a MSO Service contractor and the limited
PIV card production capability of that contractor. In addition to the MSO Service
contractor limitations, GSA is faced with other obstacles affecting its ability to
implement HSPD-12 such as the absence of a centralized database for
contractor information and the need for a detailed HSPD-12 implementation plan.
To ensure that GSA meets future OMB deadlines and implementation of HSPD-
12 as envisioned by the President, the Chief Information Officer should have the
PMO Manager and HSPD-12 stakeholders work together to establish a detailed
implementation plan outlining how GSA plans to implement HSPD-12 in its
entirety and establish a contractor identity management system, while expediting
background investigations for embedded contractors.

As the OMB deadlines draw near, there also is a distinct possibility that
background investigations processed by the Office of Personnel Management
(OPM) may become backlogged. Within GSA alone, background investigations
for employees, and contractors could reach over 67,000. However, this number
could be over/under estimated due to the fact GSA does not have a centralized



                                       10
database that tracks the number of actual GSA contractors. When taking into
account all the other government agencies needing background investigations,
there is a good possibility of a backlog at OPM. While employees and
contractors can obtain limited access to GSA facilities and computer systems
with an acceptable fingerprint check, full access to internal computer systems will
not be authorized. Backlogs in the performance of background investigations by
OPM will have a direct impact on agencies ability to accomplish their mission.

Recommendations

We recommend that the Chief Information Officer take steps to ensure the
successful implementation and management of HSPD-12 initiatives by:

1. Developing a detailed implementation plan outlining how GSA plans to
   implement HSPD-12 in its entirety; including how it will utilize the MSO
   Service contractor and implement logical and physical access throughout
   GSA.

2. Establishing a centralized contractor database. Enrollment in this system
   should be mandatory for all current and future contractors.

      a. Expediting background investigations for embedded contractors that
         currently have access to GSA systems.


Management Comments

Management concurred with the report findings. The Chief Information Officer’s
comments to this report are included as Appendix A.

Management Controls

A review of management controls was not performed due to the limited number
of PIV II compliant cards currently issued. It is planned that testing of the
management controls will be conducted in a subsequent review when the new
MSO contractor has been established.




                                        11
APPENDICES
APPENDIX A

                REVIEW OF THE IMPLEMENTATION
                    OF HOMELAND SECURITY
                  PRESIDENTIAL DIRECTIVE 12
               REPORT NUMBER A060195/O/R/F07013

             Management’s Response to the Draft Report




                                A-1
APPENDIX A




             A-2
APPENDIX B

                          REVIEW OF THE IMPLEMENTATION
                              OF HOMELAND SECURITY
                            PRESIDENTIAL DIRECTIVE 12
                         REPORT NUMBER A060195/O/R/F07013

                                       Report Distribution



                                                                                               Copies

Office of the Chief Information Officer (I) ......................................................... 3
Office of the Chief Human Capital Officer (C) ................................................. 1
Office of the Chief Financial Officer (B) ........................................................... 2
Assistant Inspector General for Auditing (JA, JAO) ......................................... 2
Assistant Inspector General for Investigations (JI)........................................... 1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA) ....................... 1




                                                   B-1
